  Report No. D-2009-076             April 14, 2009




Afghanistan Security Forces Fund Phase III-U.S. Army
   Corps of Engineers Real Property Accountability
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AED                           Afghanistan Engineer District
AFCEE                         Air Force Center for Engineering and the Environment
ANA                           Afghanistan National Army
ASF                           Afghanistan Security Forces
CSTC-A                        Combined Security Transition Command-Afghanistan
FAR                           Federal Acquisition Regulation
IG                            Inspector General
IGE                           Independent Government Estimate
MeS                           Mazar-e-Sharif
MSCC                          Mustafa Sahak Construction Company
NMAA                          National Military Academy of Afghanistan
NMH                           National Military Hospital
QA                            Quality Assurance
QC                            Quality Control
RMS                           Resident Management System
USACE                         U.S. Army Corps of Engineers
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON , VIRGINIA 22202-4704


                                                                                       April 14, 2009

MEMORANDUM FOR COMMANDING GENERAL, COMBINED SECURITY TRANSITION
                 COMMAND-AFGHANISTAN
               COMMANDER, U.S. ARMY CORPS OF ENGINEERS,
                 AFGHANISTAN ENGINEER DISTRICT

SUBJECT: Afghanistan Security Forces Fund Phase lII-U.S. Army Corps of Engineers Real
         Property Accountability (Report No. 0-2009-076)

We are providing this report for your information and usc. We considered management comments
on a draft of the report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                   Principal Assistant Inspector General
                                               for Auditing
Report No. D-2009-076 (Project No. D2007-D000LQ-0161.004)                       April 14, 2009


               Results in Brief: Afghanistan Security Forces
               Fund Phase III-U.S. Army Corps of Engineers
               Real Property Accountability
                                                        construction requirements at the Kabul National
What We Did                                             Military Hospital. We recommend that AED
We determined whether the Combined Security             account for all variances between independent
Transition Command-Afghanistan (CSTC-A)                 Government estimates and final prices and
and the U.S. Army Corps of Engineers,                   strengthen controls over the adequacy of funds.
Afghanistan Engineer District (AED) properly            We recommend that AED review all ANA real
accounted for real property construction                property construction contracts to determine
purchased with money from the Afghanistan               whether the construction contractor is
Security Forces Fund to support the Afghanistan         maintaining an effective quality control system.
National Army (ANA). AED, a subordinate                 Lastly, we recommend that AED strengthen
command of the U.S. Army Corps of Engineers,            quality controls over construction contracts.
provided contracting services to CSTC-A.
                                                        Management Comments and
What We Found                                           Our Response
We reviewed 25 construction contracts, valued
                                                        CSTC-A and AED agreed with all the
at $420.0 million, awarded by AED in support
                                                        recommendations. CSTC-A and AED finalized
of the ANA. AED did not properly negotiate
and award two contract modifications, valued at         and signed the ANA program management plan
$1.4 million, made to two contracts related to          and have agreed to improve planning of real
                                                        property construction as required by the ANA
the construction of the Kabul National Military
                                                        Program Management Plan. AED will take
Hospital. AED also improperly exercised a
                                                        steps to improve contract management and
contract option that did not have well-defined
requirements on one of the National Military            oversight of contractor quality control. We
                                                        consider the CSTC-A and AED comments
Hospital contracts. As a result, AED spent more
                                                        responsive.
than $770,000 unnecessarily.

In addition, AED did not ensure that required
quality control procedures were in place on
four contracts valued at $52.6 million. These
material internal control weaknesses led to
faulty construction, unsafe working conditions,
and the construction contractor’s failure to meet
the contract requirements.

What We Recommend
We recommend that CSTC-A and AED finalize                 Kabul National Military Hospital
and sign the ANA program management plan,
document construction planning decisions, and,
working with the ANA, perform a
comprehensive review of the remaining


                                                    i
Report No. D-2009-076 (Project No. D2007-D000LQ-0161.004)                April 14, 2009


Recommendations Table
Management                        Recommendations           No Additional Comments
                                  Requiring Comment         Required
Commanding General, Combined      None                      A.1., B.1.
Security Transition Command-
Afghanistan
Commander, U.S. Army Corps of     None                      A.1., A.2., B.1., B.2., B.3.
Engineers, Afghanistan Engineer
District




                                          ii
Table of Contents

Results in Brief                                                            i

Introduction                                                            1

       Objectives                                                       1
       Background                                                       1
       Review of Internal Controls                                      3
       Management Comments on Internal Controls                         4

Finding A. Kabul National Military Hospital Construction                5

       Management Comments on the Finding and Our Response             10
       Recommendations, Management Comments, and Our Response          11

Finding B. Quality Control                                             15

       Management Actions                                              21
       Management Comments on the Finding and Our Response             21
       Recommendations, Management Comments, and Our Response          22

Appendices

       A. Scope and Methodology                                        25
              Prior Coverage                                           26
       B. Other Matter of Interest—ANA Maintenance of Buildings        27
       C. Management Comments on the Review of Internal Controls and
          Our Response                                                 29
       D. Contracts Reviewed                                           31
       E. Sites Visited                                                33

Management Comments

       Combined Security Transition Command-Afghanistan                41
       U.S. Army Corps of Engineers, Afghanistan Engineer District     45
Introduction
Objectives
Our objectives were to determine whether organizations in Southwest Asia that the
U.S. Central Command assigned the responsibility for managing the Afghanistan
Security Forces (ASF) Fund properly accounted for the goods and services purchased
using the ASF Fund and whether the goods and services purchased were properly
delivered to the ASF. This report does not address whether the goods and services were
properly transferred to the Afghanistan National Army (ANA) because we addressed the
transfer of real property to the ANA in a prior report. DoD Inspector General (IG)
Report No. D-2009-031, “Afghanistan Security Forces Fund Phase III-Air Force Real
Property Accountability,” December 29, 2008, recommended that Combined Security
Transition Command-Afghanistan (CSTC-A) develop and implement standard operating
procedures for the transfer of real property to the ANA. See Appendix A for a discussion
of the scope and methodology and prior coverage. See Appendix B for a discussion of a
matter indirectly related to the objectives.

Background
This report is one in a series of reports of a three-phase audit of the ASF Fund. As of
June 30, 2008, $15.3 billion had been appropriated to the ASF Fund through six Public
Laws: 109-13, 109-234, 109-289, 110-28, 110-161, and 110-252.

In the first phase of the ASF Fund audit, we determined that the Under Secretary of
Defense (Comptroller)/ Chief Financial Officer and the Office of the Assistant Secretary
of the Army for Financial Management and Comptroller distributed $4.7 billion of
budget authority appropriated by Public Laws 109-13, 109-234, and 109-289 for the ASF
Fund in compliance with provisions of the three Public Laws and appropriations law.

During the second phase, we validated that DoD obligated $1.3 billion, of the
$4.7 billion, of ASF funds to assist the ASF in accordance with Public Laws 109-13,
109-234 and 109-289, and with appropriations law.

For phase three, we have issued one report that addressed real property accountability for
construction contracts awarded by the Air Force Center for Engineering and the
Environment (AFCEE) in support of the ASF. We validated the accountability for
ASF-funded real property construction valued at $253.4 million and awarded by AFCEE
at the direction of CSTC-A. We determined that AFCEE and CSTC-A maintained
sufficient documentation and records to track real property constructed to support the
ANA. However, CSTC-A did not have a formal process in place to transfer real property
to the ANA.

This report addresses accountability for real property construction awarded by the
U.S. Army Corps of Engineers (USACE) at the direction of CSTC-A in support of the
ANA. For this report, we reviewed USACE, Afghanistan Engineer District (AED) real


                                            1
property construction contracts funded in part by the ASF Fund appropriation in Public
Laws 109-13, 109-234, 109-289. Subsequent reports will address accountability for
weapons, vehicles, and communication equipment provided to support the ASF.

Afghanistan Security Forces Fund
Public Laws 109-13, 109-234, and 109-289 appropriated ASF Funds for “the security
forces of Afghanistan including the provision of equipment, supplies, services, training,
facility, and infrastructure repair, renovation, and construction.” This report focuses on
the construction portion of the ASF Fund appropriation.

Roles and Responsibilities for ASF Fund Execution
U.S. Central Command
The U.S. Central Command is responsible for working to promote development and
cooperation among nations to establish security and stability in its area of responsibility.
Afghanistan is one of the countries within the U.S. Central Command’s area of
responsibility. The U.S. Central Command, through its subordinate command, CSTC-A,
is working with the Government of Afghanistan to facilitate the training and equipping of
the ASF, which includes the ANA.

Combined Security Transition Command-Afghanistan
The CSTC-A mission is, in partnership with the Islamic Republic of Afghanistan and the
international community, to plan, program, and implement structural, organizational,
institutional and management reforms of the ASF in order to develop a stable
Afghanistan, strengthen the rule of law, and deter and defeat terrorism within its borders.

Afghanistan Engineer District
AED performs construction contracting services on behalf of CSTC-A. A draft ANA
program management plan dated January 2008 delineated the services and the costs of
those services that AED will provide to CSTC-A, including contracting for ANA real
property construction and quality assurance. Further, the draft ANA program
management plan stated:

               The Combined Security Transition Command-Afghanistan (CSTC-A)
               and U.S. Army Corps of Engineers (USACE), Afghanistan Engineer
               District (AED), have jointly developed this Program Management Plan
               (PgMP) to ensure successful design and construction of facilities
               supporting the fielding of the 80,000 Afghan National Army (ANA)
               Soldiers throughout Afghanistan. This PgMP outlines the procedures
               and responsibilities Afghan and U.S. organizations will undertake
               during the acquisition planning, management, design, construction and
               closeout of the programmed facilities.

Our sample of construction contracts was selected from a universe of contracts worth
$2.4 billion for AED-ANA real property construction. Through FY 2007, AED obligated
$1.5 billion for real property construction contracts, and expects to obligate another
$0.9 billion through FY 2009. We reviewed 25 contracts worth $420.0 million for ANA


                                                2
real property construction, funded in part by Public Laws 109-13, 109-234, and 109-289.
See Appendix D for a list of the contracts we reviewed.

The figure on the next page shows the locations of AED real property construction sites
in Kabul as of February 2008. The sites on the map with a “V” represent sites that we
visited during our audit (for a list of sites visited, see Appendix E)

We also visited real property construction sites in Gardez, Kandahar, Mazar-e-Sharif, and
Herat.

Review of Internal Controls
We determined that material internal control weaknesses as defined by
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4,
2006, existed in the planning of construction requirements and in AED inspection of real
property. DoD Instruction 5010.40 states that internal controls are the organization
policies and procedures that help program and financial managers achieve results and
safeguard the integrity of their programs. CSTC-A and AED did not maintain sufficient
controls to ensure that construction requirements were properly planned before contract
award. Implementing our recommendations will strengthen controls over construction
planning by requiring planning decisions to be documented. AED did not have sufficient
control over inspection of construction. Implementing our recommendations will
strengthen contractor quality controls to ensure that real property construction meets the
Government’s requirements.




                                            3
           Map of Kabul With ANA Real Property Construction Projects

We will provide a copy of the report to the senior CSTC-A and AED officials responsible
for internal controls.

Management Comments on Internal Controls
A summary of AED comments on its internal controls and our response to the comments
appear in Appendix C.




                                          4
Finding A. Kabul National Military Hospital
Construction
CSTC-A and AED accounted for construction on 23 of the 25 contracts reviewed.
However, AED did not properly negotiate and award contract modifications, valued at
$1.4 million, to two contracts related to the construction of the Kabul National Military
Hospital (NMH). In addition, CSTC-A and AED also improperly exercised a contract
option that did not have well-defined requirements on one of the Kabul NMH contracts.
As a result, AED may have spent $770,000 of ASF funds unnecessarily on the two Kabul
NMH contracts.

CSTC-A and AED must strengthen controls over real property construction, including
controls over requirements development and the management of contracts. CSTC-A and
AED need to:

   x   document the planning decisions made by all parties involved in developing
       construction requirements, and
   x   work with the ANA to conduct a comprehensive review of the remaining
       construction requirements at the Kabul NMH.

To strengthen controls over contract management, AED needs to:

   x   document the reasons that the independent Government cost estimate differs from
       the final price when there are significant differences, and
   x   strengthen controls over the review of whether proper funds are being placed on
       the contract.

Criteria
Definition of Accountability
DoD Instruction 5000.64, “Accountability and Management of DoD-Owned Equipment
and Other Accountable Property,” November 2, 2006, defines accountability as follows:

              The obligation imposed by law, lawful order, or regulation, accepted by
              an organization or person for keeping accurate records, to ensure
              control of property, documents or funds, with or without physical
              possession. The obligation, in this context, refers to the fiduciary
              duties, responsibilities, and obligations necessary for protecting the
              public interest; however, it does not necessarily impose personal
              liability upon an organization or person.

Documentation Requirements
Federal Acquisition Regulation (FAR) Subpart 4.8, “Government Contract Files,”
discusses the documentation necessary to establish records of contracting actions.
Specifically, the FAR states:


                                                5
               The documentation in the files shall be sufficient to constitute a
               complete history of the transaction for the purpose of --
                       (1) Providing a complete background as a basis for informed
                       decisions at each step in the acquisition process;
                       (2) Supporting actions taken;
                       (3) Providing information for reviews and investigations; and
                       (4) Furnishing essential facts in the event of litigation or
                       congressional inquiries.


Criteria for Contract Negotiation
According to FAR 36.203, “Government Estimate of Construction Costs,” an
independent Government cost estimate should be prepared for each contract modification
anticipated to cost $100,000 or more. Further, FAR 36.203, states, “The estimate shall be
prepared in as much detail as though the Government were competing for award.”

According to FAR 36.214, “Special Procedures for Price Negotiation in Construction
Contracting,” when the proposed costs differ “significantly” from the Government cost
estimate, the contracting officer should request that the contractor submit cost
information to support the cost elements.

Afghanistan Engineer District Accountability
We reviewed contract documentation for 25 ANA real property construction contracts,
valued at $420.0 million, to determine whether AED maintained sufficient documentation
to account for construction in support of the ANA. AED could account for construction
on 23 of the 25 contracts. AED did not properly negotiate and award contract
modifications to two contracts related to the renovation and repair of the Kabul NMH.

CSTC-A and AED did not properly define, negotiate, or award specific contracting
actions for the Kabul NMH, resulting in unnecessary spending of more than $770,000.
The examples below illustrate the difficulties for CSTC-A and AED in operating in a
wartime, expeditionary environment.

AED awarded two contracts for a two-phased renovation and repair of the Kabul NMH.
The first phase was awarded on October 9, 2004, to Zafer Construction Company and
was valued at $18.9 million. The second phase was awarded on August 1, 2006, to
Venco-Imtiaz Construction Company and was valued at $7.0 million.

Modifications were made to evaluate and replace sewage risers and to add funds for an
equitable adjustment because of construction delays. Further, CSTC-A and AED
improperly exercised a contract option for an oxygen supply system at the Kabul NMH.

Sewage Risers
AED did not properly negotiate and award a modification to evaluate and replace sewage
risers at the Kabul NMH. On April 29, 2006, AED modified the Kabul NMH Phase I
contract to include a requirement to evaluate and replace sewage risers at six buildings at


                                                6
NMH. The contract modification was valued at $343,500. AED prepared an
independent Government estimate (IGE) as part of the negotiation for this modification.

The IGE for this modification to evaluate and replace sewage risers at NMH was
prepared by a USACE cost engineer. The cost engineer estimated the cost of the
modification at $133,881. The contractor-proposed cost for this modification was
$349,631. The FAR states that when the proposed costs differ “significantly” from the
Government cost estimate, the contracting officer should request that the contractor
submit cost information to support the cost elements. We found no request from the
contracting officer to the contractor requesting support for the cost elements. Instead,
according to the prenegotiation objective memorandum for this modification, AED
reviewed the contractor proposal and determined that the contractor’s pricing was
“generally consistent” with the scope of work and complied with industry pricing
standards. Further, the prenegotiation memorandum stated that the differences between
the IGE and the contractor’s proposal would be clarified during negotiation with the
contractor.

However, according to the price negotiation memorandum that documented the
negotiations between AED and the contractor, AED’s price objective was $343,387,
more than $200,000 higher than the IGE. In reference to the variance between the price
objective and the IGE, the AED negotiator stated, “At the time the IGE was done,
reconstruction of the riser shafts was not included and the new work that has taken place
since the IGE that has to be removed and redone could not have been included. Both of
these issues add significantly to the cost of the change.” However, the price negotiation
memorandum contained no schedule that reconciled the differences between the IGE and
the AED price objective. Further, the cost engineer prepared a memorandum that
disputed the contractor proposed costs. According to the memo,

               A cost analysis of the contractor’s proposal compared to the same
               scope of work for the IGE indicates that the labor and equipment cost
               for the pipe work is at about $5 per meter while the contractor’s
               proposal is at $53.4 per meter. The IGE is based on Afghanistan labor
               rates at about $3 per hour including all fringes. It appears that the
               contractor’s proposal is excessive.

In addition, the memo stated the IGE took into account the replacement of sewage risers
in eight buildings, while the contractor’s proposal was for riser replacement in six
buildings. Also, the USACE cost engineer (independent Government estimator) noted
that he was not present during negotiations.

Given the discrepancy of more than $200,000 between the IGE and the contractor
proposal, AED may have overpaid for this contract modification. Further, AED did not
have sufficient cost support to account for this large discrepancy. Therefore, AED did not
properly negotiate and award the modification to evaluate and replace sewage risers at
NMH.




                                                7
Construction Delays
AED did not properly negotiate and award a modification adding funds for an equitable
adjustment because of construction delays. The contractor requested compensation for
multiple delays, caused by delayed site access, differing site conditions, potential terrorist
actions, and late delivery of buildings. The AED technical analysis concluded that
$600,000 was adequate compensation for delays. However, AED compensated the
contractor $1.0 million. There was no explanation or analysis provided to explain the
$400,000 difference.

The contractor had sent a letter to AED on April 11, 2006, requesting compensation of
$1.5 million for delays of 172 days. The contractor proposed compensation of $8,965 per
day, which included overhead costs, a 9-percent general and administrative rate, and a
12-percent profit.

In response, AED conducted a technical analysis that noted that some cost items included
in overhead should have been included in the general and administrative rate. In
summary, the AED technical analysis called the contractor proposed daily rate of $8,965
“outrageous” and stated that a 110-day extension valued at approximately $600,000
would be “more than adequate to compensate the contractor for ALL delays on the
project.” Further, the technical analysis noted that the schedule presented by the
contractor was impossible to analyze as presented.

In contract modification P00010 to the phase I contract at NMH, dated July 25, 2006, and
valued at $1.0 million, AED compensated the contractor for delays caused by the
Government. The $1.0 million compensated the contractor for overhead costs, general
and administrative costs, and profit for a 160-day delay. Given the sizeable discrepancy
between the AED technical analysis and the contractor request for equitable adjustment,
AED did not adequately document the negotiation and award of this modification or why
it had agreed to pay more than 1.5 times what it declared “more than adequate.”

As of November 2008, the contractor submitted a claim to AED of an additional
$4.0 million to compensate for time delays because contract requirements were
ambiguous. This new claim is currently under review by AED.

Oxygen Supply System
CSTC-A and AED did not properly define a contract requirement for an oxygen supply
system at NMH. The NMH phase II contract, awarded on August 1, 2006, included
option 0016 to replace the oxygen supply system, valued at $940,137. The option was to
demolish and replace the existing oxygen supply system in the three buildings. This
option was exercised as part of the award of the contract. More than 1 year later, on
November 27, 2007, AED removed the oxygen supply system requirement from the
contract. However, AED was able to recover only $769,471 of the original requirement,
as $170,666 had already been spent on the design of the oxygen supply system.
According to a price negotiation memorandum, “It was discovered after award of
contract that the scope of this Line Item would have to be significantly increased in order
to bring the work up to code for the size of these buildings.” Specifically, it was


                                              8
discovered that the hospital fire suppression system had to be upgraded to handle an
oxygen supply system. The price negotiation memorandum stated that AED planned to
procure the oxygen supply system under a separate contract.

According to the draft ANA program management plan, CSTC-A is responsible for the
development of requirements. Specifically, the draft plan states, “CSTC-A is responsible
for the identification, validation, budgeting and requirements definition for all facilities
required for the fielding of the new ANA.” So even as AED exercised the contract
option for the oxygen supply system, the responsibility for requirements development lay
with CSTC-A. Further, the draft ANA program management plan stated:

               While risks cannot be totally eliminated, they can be mitigated thru
               close coordination between CSTC-A, AED PgM [Program
               Management], MPRI mentors and ANA users early in the planning
               process. Best business practices will be employed including detailed
               planning Charrettes, scoping meetings, site visits and follow up
               coordination meetings to ensure all requirements are carefully
               considered and deliberately included in the scopes of work (SOW)
               prior to issuance of Requests for Proposals (RFP).

The Kabul NMH phase II contract file did not document that this planning coordination
took place. AED exercised this contract option upon contract award in August 2006.
More than a year later, in November 2007, it was “discovered” that the hospital fire
suppression system would have to be upgraded to handle an oxygen supply system. The
oxygen supply system requirement was not defined at the time the contract was awarded,
and should not have been exercised.

We believe, however, AED chose to exercise this contract option because the contract
was partially funded by Public Law 109-13, and the ASF Fund appropriation in the law
was set to expire on September 30, 2006. Given that the contract was awarded on
August 1, 2006, AED had about 60 days from the contract award to exercise the contract
option. Had AED not exercised the option by September 30, 2006, the funding would
have expired. By exercising the option, even when the requirement was not fully
defined, AED was able to obligate the funds before they expired. The exercise of the
option for requirements that were not fully defined was not appropriate, and resulted in
AED inefficiently spending $170,666 for design costs for an oxygen supply system that
was never delivered.

Summary
AED is constructing more than $2.4 billion worth of buildings for the ANA. We
reviewed 25 contracts, valued at $420.0 million, for real property construction awarded
by AED in support of the ANA, and AED could account for construction on 23 of the
25 contracts. AED did not properly negotiate and award contract modifications made to
two contracts related to the renovation and repair of the Kabul NMH. At the NMH, AED
did not properly negotiate contract modifications for sewage risers or compensation for
construction delays. In addition, AED improperly exercised a contract option for an
oxygen supply system that was later removed from the contract. CSTC-A and AED must


                                                9
implement controls to ensure funds are efficiently spent to fulfill actual requirements of
the ASF.

Management Comments on the Finding and Our
Response
AED Comments
Responding for AED, the Commander, AED, partially agreed with the finding that AED
may have spent $770,000 unnecessarily. He agreed that the NMH modifications may
have resulted in funds being potentially awarded without adequate documentation. He
did not agree that $170,666 was inefficiently spent in support of the NMH oxygen supply
system, as the design may be used in the preparation of the next phase of construction.

Regarding the sewage riser modification, the Commander stated that problems occurred
because of an incomplete IGE that did not take into account additional work that was in
the Request for Proposal. He stated that the contractor’s cost proposal contained
documentation supporting proposed costs, and the contracting officer deemed the support
adequate and signed the modification. The Commander stated that it would be incorrect
to assume that the negotiations were not carried out properly.

Regarding the modification for construction delays, the Commander stated that the
problems appeared to have been caused by an IGE that understated the amount for
extended overhead or standby costs. According to him, the contract files lacked details to
fully resolve the differences among the IGE, $600,000; the contractor’s proposal,
$1.5 million; and the agreed-to modification amount of $1.0 million. AED stated that
this does not mean that the differences, on the part of the Government or contractor, do
not have merit.

The Commander did not agree with the finding that AED improperly exercised a contract
option that did not have well-defined requirements on one of the NMH contracts. He
stated that AED properly awarded the option for the oxygen supply system and ensured
that the design of the project was in conformance with CSTC-A’s requirements scope of
work. He stated that AED found e-mails between AED personnel and CSTC-A staff
discussing the statement of work and concluded that CSTC-A and AED agreed to the
statement of work prior to contract award. The Commander stated that the $170,000
expended under the original award was not totally lost. The design became the property
of the Government and was handed over to the end user at the close of the contract.
According to the Commander, the design will likely be used in preparation of the next
phase of construction, with the extent of the requirement more fully understood. He
stated that there was no evidence to support the conclusion that AED chose to exercise
the option for the oxygen supply system just to spend expiring funds. According to the
Commander, the timing of the obligation does not, in and of itself, establish anything
improper.




                                            10
Our Response
AED did not properly negotiate and award the modification for sewage risers or the
modification to compensate the contractor for construction delays.

Had CSTC-A and AED properly planned construction requirements at NMH, they would
have known that the fire suppression system at the hospital needed to be upgraded to
support the oxygen supply system before the contract was awarded. The contract option
for the oxygen supply system called for the delivery of an oxygen supply system.
Exercising this option did not obtain an oxygen supply system. The American taxpayer
spent $170,666 and received no tangible asset in return.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Commander, U.S. Army Corps of Engineers,
Afghanistan Engineer District and the Commanding General, Combined Security
Transition Command-Afghanistan:

       a. Strengthen controls for real property construction by documenting
          planning decisions made by all parties involved in developing
          construction requirements, as discussed in the draft Afghanistan National
          Army Program Management Plan.

CSTC-A Comments
The Deputy Commanding General, CSTC-A, answered on behalf of the Commanding
General, CSTC-A. He agreed with the recommendation. The Deputy Commanding
General stated that CSTC-A signed the ANA program management plan and has
institutionalized the documentation of planning decisions involved in developing
construction requirements with AED.

Our Response
We consider CSTC-A’s comments responsive.

AED Comments
The Commander, AED agreed with the recommendation. He noted that the ANA
program management plan was signed by CSTC-A and AED officials. Implementation
of the requirements in this plan will enhance program and project definition and
development of requests for proposals.

Our Response
We consider AED’s comments responsive.




                                          11
       b. Conduct with the Afghanistan National Army a comprehensive review of
          the construction requirements at the National Military Hospital in Kabul.
          This review should focus on clearly defining the remaining construction
          requirements of the Afghanistan National Army.

CSTC-A Comments
The Deputy Commanding General, CSTC-A, answered on behalf of the Commanding
General, CSTC-A. He agreed with the recommendation. The Deputy Commanding
General stated that this review was completed as part of the expansion plan for the
growth of the ANA to 134,000 troops. The review resulted in additional requirements for
a military health professionals institute, ANA medical training student housing, and
electrical power infrastructure enhancements.

Our Response
We consider the CSTC-A comments responsive.

AED Comments
The Commander, AED agreed with the recommendation. He stated that the
comprehensive review should take place between CSTC-A and the ANA because
CSTC-A is responsible for the identification, validation, budgeting, and requirements
definition for all facilities required for fielding the ANA.

Our Response
We consider the AED comments responsive. Regarding the construction requirements at
NMH, we agree that CSTC-A and the ANA should be the primary parties in defining the
remaining requirements, but AED must be involved in the requirements definition
process.

A.2. We recommend that the Commander, U.S. Army Corps of Engineers,
Afghanistan Engineer District:

       a. Account for variances between independent Government cost estimates
          and final prices, when applicable.

AED Comments
The Commander, AED agreed with the recommendation. He stated that AED will
emphasize the requirements in the FAR, the Engineer FAR Supplement, and AED’s
policies and procedures to ensure all procurement personnel obtain an initial IGE when
applicable, and updates when appropriate, in accordance with regulations. Further, the
Commander stated that AED will ensure that personnel document differences between
the IGE and proposed amounts, accounting for significant variances in the contract files.

Our Response
We consider the AED comments responsive.




                                            12
        b. Ensure all requirements on construction contracts are fully defined at the
           time of contract award.

AED Comments
The AED Commander agreed, stating that AED will strictly adhere to the ANA program
management plan guidance and coordinate fully with CSTC-A. He stated that CSTC-A
is responsible for defining the requirements to AED, identifying all project requirements,
functional imperatives, and performance criteria.

Our Response
We consider the AED comments responsive.

        c. Strengthen controls over the review of the adequacy of funds being
           placed on the contract.

AED Comments
The AED Commander agreed. He stated that AED will strictly adhere to the ANA
program management plan guidance and coordinate fully with CSTC-A. The
Commander stated that CSTC-A is responsible for managing the funds necessary to
execute the ANA program in concert with AED. He stated that CSTC-A will coordinate
with its CJ-8 (Comptroller), AED, and USACE to establish the format, frequency, and
financial reporting requirements for projects funded through Foreign Military Sales and
the ASF Fund.

Our Response
We consider the AED comments responsive.

Recommendations in a prior report  to develop and implement standard operating
procedures for the transfer of real property to the ANA were in the process of being
implemented, and are not repeated in this report.





 DoD Inspector General Report No. D-2009-031, “Afghanistan Security Forces Fund Phase III-Air Force
Real Property Accountability,” December 29, 2008.


                                                 13
14
Finding B. Quality Control
AED construction projects in Afghanistan did not have adequate quality controls (QCs).
Specifically, AED did not exercise oversight over QC for four contracts valued at
$52.6 million. The lack of QC oversight led to faulty construction, unsafe working
conditions, and the construction contractor’s failure to meet contract requirements on
those four contracts. CSTC-A and AED must take immediate action to strengthen
controls over real property construction by clearly defining the roles and responsibilities
of all parties involved in contracting for construction of buildings to support the ANA.

To further strengthen QC, AED needs to:

   x   develop and implement procedures to verify that the construction contractor is
       capable of performing QC prior to contract award, and
   x   develop and implement standard operating procedures to validate contractual QC
       procedures have been accomplished.

Inspection Requirements
FAR Part 46, “Quality Assurance,” defines contract quality requirements in terms of the
technical requirements related to inspection, the contract clauses that ensure quality, and
other QCs of the contractor required to assure that the product being contracted for
conforms to the terms of the contract. Further, FAR Part 46 defines Government contract
quality assurance (QA) as “the various functions, including inspection, performed by the
Government to determine whether a contractor has fulfilled the contract obligations
pertaining to quality and quantity.”

FAR 46.102, “Policy,” discusses the role of Government agencies in QA. Specifically,
FAR 46.102 states that agencies shall ensure that:

               (a) Contracts include inspection and other quality requirements,
               including warranty clauses when appropriate, that are determined
               necessary to protect the Government’s interest;
               (b) Supplies or services tendered by contractors meet contract
               requirements;
               (c) Government contract quality assurance is conducted before
               acceptance (except as otherwise provided in this part), by or under the
               direction of Government personnel;
               (d) No contract precludes the Government from performing inspection;
               (e) Nonconforming supplies or services are rejected, except as
               otherwise provided in 46.407;
               (f) Contracts for commercial items shall rely on a contractor’s existing
               quality assurance system as a substitute for compliance with Govern-
               ment inspection and testing before tender for acceptance unless
               customary market practices for the commercial item being acquired
               permit in-process inspection (Section 8002 of Public Law 103-355).
               Any in-process inspection by the Government shall be conducted in a
               manner consistent with commercial practice; and
               (g) The quality assurance and acceptance services of other agencies are
               used when this will be effective, economical, or otherwise in the
               Government’s interest.


                                                 15
In discussing the contractor’s responsibilities for QA, FAR 46.105, “Contractor
Responsibilities,” states that the contractor is responsible for:

               (1) Controlling the quality of supplies or services;
               (2) Tendering to the Government for acceptance only those supplies or
               services that conform to contract requirements;
               (3) Ensuring that vendors or suppliers of raw materials, parts,
               components, subassemblies, etc., have an acceptable quality control
               system; and
               (4) Maintaining substantiating evidence, when required by the con-
               tract, that the supplies or services conform to contract quality require-
               ments, and furnishing such information to the Government as required.

FAR 46.312, “Construction Contracts,” instructs the contracting officer to insert contract
clause 52.246, “Inspection of Construction,” in solicitations and contracts. Contract
clause 52.246 provides clear detail on the quality requirements for construction contracts.

               The Contractor shall maintain an adequate inspection system and
               perform such inspections as will ensure that the work performed under
               the contract conforms to contract requirements. The Contractor shall
               maintain complete inspection records and make them available to the
               Government. All work shall be conducted under the general direction
               of the Contracting Officer and is subject to Government inspection and
               test at all places and at all reasonable times before acceptance to ensure
               strict compliance with the terms of the contract.

Quality Control Procedures
We reviewed controls over the inspection of real property construction, including
contract QA and QC.

Quality Assurance
According to the draft program management plan for the ANA program, AED is
responsible for QA for real property construction. AED’s QA responsibilities include:

    x   inspecting work sites, material, and equipment to ensure compliance with the
        plan;
    x   documenting daily safety and occupational health inspections provided by the
        contractor in daily logs; and
    x   identifying and documenting safety and health issues and establishing actions, a
        timetable, and responsibility for corrective action on deficiencies.

The ANA program management plan is an authoritative document that clearly defines the
roles and responsibilities of CSTC-A, AED, and the construction contractor. Yet, the
program management plan is only in draft form, suggesting that CSTC-A and AED have
yet to come to full agreement on their responsibilities in managing a multibillion-dollar
reconstruction program to support the ANA. Given the importance of this program and
its dollar value, CSTC-A and AED should finalize the ANA program management plan.



                                                  16
Quality Control
The contractor is responsible for establishing and maintaining a QC system, which
consists of plans, procedures, and the organization necessary to produce an end product
that complies with the contract requirements. QC requires a staff with appropriate skills
to ensure safety and contract compliance. According to contract requirements, the QC
staff should maintain a presence at the construction site at all times. The QC systems
manager is responsible for overall management of QC, and should have proper education
and experience to ensure compliance with the contract.

Quality Assurance and Quality Control Deficiencies
QA reports and correspondence between AED and the contractor documented multiple
instances in which the contractor did not have proper QC at the construction site, leading
to noncompliance with contract requirements. Specifically, we found examples of
control weaknesses in performance of QA and QC on the Darulaman Commando
Battalion Complex contract, the National Military Academy of Afghanistan (NMAA)
gym contract, and the Kabul NMH contracts (Phases I & II). The lack of QC oversight
led to faulty construction, unsafe working conditions, and the construction contractor’s
failure to meet contract requirements on those four contracts.

Darulaman Commando Battalion Complex
The construction contractor did not have an adequate QC system at the Darulaman
Commando Battalion Complex, resulting in multiple QC deficiencies. AED awarded
Pro-Sima a contract, valued at $23.2 million, to design and construct a Commando
Battalion Complex at Rish Kvour near Darulaman. A sample of AED QA reports
documented that AED was performing inspections of the construction site. The QA
reports noted numerous safety violations and problems with design documentation by the
contractor, and described Pro-Sima’s inability to meet contract schedules. In addition to
daily QA reports, AED also issued a series of letters to Pro-Sima, noting QC concerns.
In a letter dated May 30, 2007, AED noted that Pro-Sima had missed six “critical” due
dates for contractor submittals, including submission of the contractor’s QC plan and an
accident prevention plan. AED further noted that Pro-Sima’s inability to meet contract
schedules would lead to an interim unsatisfactory rating. On August 30, 2007, AED
issued an interim unsatisfactory rating for Pro-Sima. AED noted that, “Pro-Sima appears
to not have any idea what is required by this contract.” Further, AED noted that
Pro-Sima’s QC plan was a good plan, but stated that the company was not following the
plan. Specifically, AED stated:

               There is typically no Pro-Sima QC manager or alternate managers on
               site daily. Pro-Sima has so far ignored the quality control requirements
               of this job both in design and production quality control. Pro-Sima
               much of the time has not even one Pro-Sima employee on site during
               work activities so that they can control the production, answer
               questions, perform quality control or enforce safety compliance. Pro-
               Sima’s daily reports are always submitted late and we have to notify
               this contractor several times to get the reports submitted.




                                                 17
Regarding staffing, AED stated:
               Pro-Sima apparently bid this project without any organization in place
               or any plan on how to accomplish the work on time or to the standards
               as specified in the RFP [Request for Proposal]. Pro-Sima to this late
               date in the project has not hired or staffed their organization with
               adequate qualified personnel to competently execute their contracted
               work with AED. Also, when the project work plans are finally written
               properly and accepted by the U.S. Army Corps of Engineers, Pro-Sima
               rarely follows their own plan (example: Safety and CQC [Contractor
               Quality Control] plans).

However, even given AED’s efforts to bring its concerns to the contractor’s attention, the
contractor was still unable to maintain an effective QC system. In a letter dated May 28,
2008, AED again expressed concerns with Pro-Sima’s QC and stated, “This week it was
discovered that two buildings, B9 and B3, were formed wrong.” AED noted that the
project was already behind schedule, and stated, “These types of mistakes can not wait
until the building is already formed and ready to pour before they are discovered. This
type quality control is totally unacceptable.”

On November 18, 2008, AED wrote the contractor and stated Pro-Sima’s QC and work
coordination were “unsatisfactory.” Further, the letter detailed an incident on the prior
day that illustrated AED’s concerns.

               On Nov 17 2008 Pro-Sima started a concrete pour after normal work
               hours for the east end sewer lift station. COE [Corp of Engineers] had
               not been notified of this and had not inspected the form work. The
               concrete pour resulted in the forms breaking loose and the loss of the
               concrete and valuable construction time. Your company’s site
               supervision continues to disregard regulations regarding work task.
               Your company’s management continues to ignore these problems due
               to not answering the recent serial letter that was sent about this type
               action, and continues to let this type of conduct take place on this
               project. There seems to be little or no site coordination between
               management and site supervision.

The contract for the Commando Battalion Complex at Rish Kvour demonstrated that,
even with adequate QA inspection, AED still needed to strengthen controls over the
construction contractor’s compliance with inspection requirements. Otherwise, the
Government is at increased risk of receiving an end product that does not comply with
the contract requirements. This construction contract provides a clear example of the
extraordinary challenges facing CSTC-A and AED in building an infrastructure to
support the ANA in a wartime environment.

National Military Academy of Afghanistan Gym
AED and the construction contractor did not have adequate QA or QC for the NMAA
gym contract, resulting in construction that did not meet contract specifications. AED
awarded contract W917PM-06-C-0022, valued at $3.5 million, to Mustafa Sahak
Construction Company (MSCC) on June 30, 2006, for various construction requirements
at NMAA. The construction included building a gym, paving roads, and renovating a


                                                18
billet facility. For this contract, we selected a sample of QA reports between July and
August 2008. During this period, the majority of QA reports were blank, and thus
provided limited evidence that AED was inspecting the construction site. Even in the QA
reports that contained information on the progress of construction, the details were
limited. For example, in a QA report dated August 10, 2008, the following comment
appeared: “Splice angles are inadequate in steel roof trusses. Requested set up a meeting
to resolve to [sic] the issue.” This QA daily report does not indicate which building the
comment referred to, nor did the comment indicate whether, as a result of this issue, the
contractor did not comply with the contract requirements.

During a previous year, AED sent a letter dated July 1, 2007, to MSCC outlining various
QC deficiencies. The letter provided some evidence that AED was inspecting the site.

               Your performance and quality control on the subject contract has been
               less than satisfactory. Your onsite quality control and project
               management staff have been unable to respond to and correct
               construction deficiencies when they are presented by the USACE
               Quality Assurance staff. Your personnel are not familiar with the
               design and specifications that your company has submitted for approval
               and continues [sic] to use unapproved materials.

AED further outlined five specific examples of QC deficiencies in MSCC’s work,
including its use of unsatisfactory material and incorrectly installing electrical conduit.
In conclusion, AED stated, “Overall, the quality of your work and your ability to perform
in a timely manner is [sic] very poor.” AED sent a series of additional letters, citing
MSCC for overestimating its construction progress, which resulted in overpayment to
MSCC, and also threatening MSCC with an interim unsatisfactory rating. Although
MSCC did dispute some of AED’s claims, AED issued an interim unsatisfactory rating
for this contract.

The NMAA gym contract suggests that AED was not diligent in inspecting the
construction contractor. Although AED sent a series of letters to the contractor detailing
QC deficiencies, the letters proved unsuccessful, and AED had to issue an interim
unsatisfactory rating. Further, the QA reports provided only limited evidence that AED
was inspecting the site. This situation also illustrates AED’s difficulties in compelling
the construction contractor to maintain proper QC. Ultimately, the QC deficiencies led to
construction that did not meet the contract specifications.

National Military Hospital-Phases I & II
In addition to the various issues discussed in finding A, the construction at NMH, valued
at $25.9 million, suffered because of a weak QC system for both phases of construction.
Although AED maintained sufficient QA, the construction contractors failed to maintain
proper inspection of the construction, had weak safety controls, and produced incomplete
contractor QC reports. These weak controls led to multiple safety violations and
construction that did not meet the contract requirements.




                                                19
Quality Assurance
The QA reports for both phases of the NMH construction were adequate for documenting
inspection of construction. The QA reports provided details on the construction project,
including updates on the progress of construction, safety violations, and other
deficiencies with the construction. Although the AED QA system provided for proper
inspection of construction at NMH, the QA reports detailed multiple deficiencies with the
contractor QC system.

Safety Controls
The AED QA reports detailed multiple safety violations for both phases at NMH. For the
phase I contract, we sampled QA reports for August through December 2005. AED QA
reports noted 10 safety violations. Specifically, the reports listed instances in which the
contractor did not have a safety officer at the site, and the AED QA was acting as the
safety officer. In one instance, the safety conditions were so bad that the site had to be
shut down. In an August 31, 2005, QA report, AED noted problems with electrical
wiring and concerns about chemicals making workers sick.

               We moved into Building # 2, where we found the Contractor was using
               chemicals to disinfect the building, but at the time had no idea what
               detergent they were using. The Government inspectors began feeling
               sick after coming into contact with this chemical and Zafer’s personnel
               were working in this area with no respiratory protection. Zafer’s
               project manager were [sic] ordered to immediately shut this building
               down to employees working. They told me that they had not put up
               any plastic protection as directed the day before. They are very
               repetitive in ignoring Government’s direction on safety issues.

In another instance in September 2005, an employee received an electrical shock while
cutting a power line.

For the phase II contract, the safety inspector was fired by the contractor because the
safety inspector was pointing out safety violations to the site manager. When the safety
inspector returned to the site, he was physically removed, and assault charges were filed
against him. The safety violations noted in the AED QA reports provide evidence that
the contractor did not maintain proper controls to ensure compliance with the contract,
resulting in unsafe working conditions.

Quality Control Reports
For the NMH phase I contract, AED could not produce any QC reports to verify whether
the contractor was documenting the progress of construction, safety issues, or
deficiencies in construction. However, in reviewing AED QA reports, we found
evidence that the QC reports were not reliable. A September 12, 2005, report noted that
Zafer, the contractor, was not incorporating Government inspection comments in the QC
reports, and called into question the accuracy of the QC reports.

               Continue to inform QC that the daily reports need to be revised if they
               are not going to incorporate Government’s inspection comments or
               safety infractions. Zafer continues to ignore this action and will not



                                                 20
               cooperate with their daily reports because they claim it makes them
               look bad to their company, so the Government’s QA report will be the
               most accurate document on file.

For the phase II contract, we found a discrepancy between what was reported by AED
QA and the contractor QC report. As noted above, in a September 27, 2007, QA report,
the contractor safety inspector was fired for pointing out safety violations to the
contractor. However, the contractor QC reports make no mention of the firing of the
safety inspector. This omission not only casts doubt on the reliability of the QC reports
in providing information on the progress of construction, but also suggests that the
contractor is not willing to report items that reflect poorly on its performance.

Construction Deficiencies
For the phase I contract, we found multiple examples of deficiencies in construction. We
found examples in the AED QA reports, such as concrete not being properly cured,
waterproofing not being applied properly to bathroom floors, and poor paint jobs. In one
instance, AED disputed a claim made by the contractor that a primer was applied as part
of painting a wall in a mechanical building at NMH. AED went as far as testing a section
of the wall to determine whether the primer was applied. The phase II contract is
ongoing, and we did not find any major construction deficiencies.

Summary
AED did not consistently maintain proper controls over inspection of construction. The
lack of AED oversight led to faulty construction, unsafe working conditions, and
construction that did not meet contract requirements.

The QC deficiencies in construction services will continue to have an adverse effect on
both CSTC-A and AED’s goal to provide support for the ANA. AED’s failure to compel
construction contractors to maintain QC systems directly undermines the mission of
CSTC-A to build a self-sustaining security capability in Afghanistan.


Management Actions
Acting on the recommendation in the draft report, CSTC-A and AED finalized and
signed the ANA Program Management Plan. In addition, the AED Commander noted in
comments that AED has taken corrective actions to assist non-U.S. contractors in their
performance of their responsibilities, including increased training, mentoring, and site
support. In addition, the Commander noted that AED has established a QA Branch to
improve QA/QC functions.


Management Comments on the Finding and Our
Response
AED Comments
The Commander, AED partially agreed with the finding that projects did not have
adequate QCs. He agreed that four contracts identified in the report “suffered troubles


                                               21
with the QC program” but did not agree that AED did not exercise oversight of the QC
program. The AED Commander stated that most of the AED contractors are foreign and
have not been exposed to QA or the responsibilities of a QC system. The AED
Commander also noted that AED’s QA efforts continuously documented instances in
which the contractor did not have proper QC at the construction sites. Further, the AED
Commander stated that the four projects mentioned in the finding have been completed or
will be completed by July 2009 and handed over to the ANA.

The Commander agreed that the lack of QC oversight contributed to faulty construction
and unsafe working conditions, but he did not agree that lack of QC oversight led to the
construction contractor’s failure to meet contract requirements. The AED Commander
stated that many of AED’s non-U.S. contractors had never heard of construction material
laboratories, construction quality management, QA representatives, concrete
fundamentals, electrician qualifications, safety programs, or QC systems. The AED
Commander stated that AED’s QA records disclosed the many problems to ensure that
proper corrections were made by the contractor. He stated that AED has taken steps to
correct these problems, including increasing QA staffing, emphasizing quality
management classes at Afghan trade schools, and disseminating technical guidance in
Dari and Pashtu languages. The report is correct that contract requirements may not have
been met at the point the QA and QC reports were reviewed by the auditor; however,
subsequently, AED’s QA program required construction contractors to perform new
construction, rework, repair, alter, or improve the work performed to ensure that the
construction conformed to contract requirements.

Our Response
While QC is the responsibility of the construction contractor, the contractors failed to
meet these requirements. These failures resulted in the contractor’s inability to meet
contract schedules, as well as in unsafe working conditions and faulty construction.
Effective QC is so important to the management of construction that it is not enough that
the contract contains QC requirements; AED must verify that the contractor is capable of
performing QC and has qualified staff before the contract is awarded.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Commander, U.S. Army Corps of Engineers,
Afghanistan Engineer District and the Commanding General, Combined Security
Transition Command-Afghanistan finalize and sign the Afghanistan National Army
Program Management Plan.

CSTC-A Comments
The Deputy Commanding General, CSTC-A answered on behalf of the Commanding
General, CSTC-A. The Deputy Commanding General agreed with the recommendation
and noted that the ANA Program Management Plan has been signed.




                                           22
Our Response
We consider CSTC-A’s comments responsive.

AED Comments
The Commander, AED agreed with the recommendation and also stated that CSTC-A
and AED have signed the ANA Program Management Plan.

Our Response
We consider the AED comments responsive.

B.2. We recommend that the Commander, U.S. Army Corps of Engineers,
Afghanistan Engineer District conduct a review of all Afghanistan National Army
real property construction contracts to determine whether the construction
contractor is maintaining an effective quality control system. The Commander,
Afghanistan Engineer District, should take immediate action to address any existing
quality control deficiencies, including issuing stop orders and terminating contracts
if necessary.

AED Comments
The Commander, AED agreed with the recommendation. He stated that the AED QA
branch is responsible for training and for assessing whether the construction contractor is
maintaining an effective QC system. Once the QA branch identifies contractors with QC
problems, QA staff immediately begin corrective actions in conjunction with the
contractor.

Our Response
We consider the AED comments responsive.

B.3. We recommend that the Commander, U.S. Army Corps of Engineers,
Afghanistan Engineer District strengthen controls over inspection of construction
by developing and implementing procedures to accomplish the following:

           a. Verify that the construction contractor is capable of performing the
              service it has contracted to do before the contract is awarded,
              including ensuring it has enough qualified quality control personnel.

AED Comments
The Commander, AED agreed with the recommendation. He stated that all solicitations
now contain a contractor QC specification that defines the necessary qualifications and
responsibilities for QC staffing. The Commander also stated AED has strengthened
controls over the Construction Contractor Appraisal Support System, a database AED
uses to assess contractor performance. According to AED, these steps will reduce the
chances of awarding new contracts to contractors that have performed poorly.




                                            23
Our Response
We consider the AED comments responsive.

           b. Validate that contractual quality control procedures have been
              accomplished.

AED Comments
The Commander, AED agreed with the recommendation. He stated that AED is
deploying a 10-person QA team to maintain high-quality data in the system used to track
projects, train Afghan QA representatives and new AED employees, perform substantial
QA inspections, and identify deficiencies in contractor QC, as well as providing direction
on necessary improvements.

Our Response
We consider the AED comments responsive.




                                           24
Appendix A. Scope and Methodology
We conducted this performance audit in Afghanistan and the United States from
December 2007 through March 2009 in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed real property construction contracts funded in part by the ASF Fund
appropriation in Public Laws 109-13, 109-234, and 109-289. We reviewed
DoD Instructions and the FAR. We reviewed CSTC-A Operations Orders and the
CSTC-A Campaign Plan.

We reviewed contract documentation for 25 ANA real property construction projects to
determine whether AED maintained sufficient documentation to account for real property
construction in support of the ANA. We judgmentally selected the 25 contracts from a
total universe of 84 contracts for review based on location, safety, and accessibility of the
sites within Afghanistan. In total, we reviewed ANA real property construction valued at
$420.0 million.

We did not look at the complete contract files for the real property construction projects
in our audit scope. We looked at documentation contained in the contract files that
provided a record of contracting actions. We reviewed documentation such as contracts,
contract modifications, price negotiation memoranda, and correspondence between AED
and the construction contractor to determine whether AED maintained sufficient
documentation to support contracting actions.

In Afghanistan, we visited five provinces—Kabul, Balkh, Kandahar, Herat, and Paktia—
from February through June 2008. We visited 25 construction contract sites with
U.S. Government and contractor officials to validate real property existence and
accountability.

We interviewed U.S. Government and contractor officials and reviewed contract
documentation from AED, including original contract awards, contract modifications,
real property turnover records, and other reports. We extracted from the USACE
Resident Management System (RMS; used to track projects) planning documentation,
project progress reports, and QA reports, among other reports. We attended AED
deployment augmentation training at the USACE Transatlantic Programs Center in
Winchester, Virginia, to gain an understanding of policies, procedures, and
responsibilities of AED employees deployed to Afghanistan.




                                             25
Use of Computer-Processed Data
We used the USACE RMS to generate reports. We found the computer-processed data to
be reliable for the 25 real property projects we looked at. Although we did not perform a
formal reliability assessment of the computer-processed data, we did not find errors that
would preclude use of the data to meet the audit objectives, or that would change the
conclusions in this report.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD
Inspector General (IG) have issued six reports discussing accountability for goods and
services provided to the Afghanistan Security Forces. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-661, “Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 2008

GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
Police Have Made Progress, but Future Plans Need to Be Better Defined,” June 2005

DoD IG
DoD IG Report No. D-2009-050, “Distribution of Funds and the Validity of Obligations
for the Management of the Afghanistan Security Forces Fund Phase II,” February 2009

DoD IG Report No. D-2009-031, “Afghanistan Security Forces Fund Phase III-Air Force
Real Property Accountability,” December 2008

DoD IG Report No. D-2008-012, “Distribution of Funds and Validity of Obligations for
the Management of the Afghanistan Security Forces Fund-Phase I,” November 2007

DoD IG Report No. D-2006-007, “Contracts Awarded to Assist the Global War on
Terrorism by the U.S. Army Corps of Engineers,” October 2005




                                           26
Appendix B. Other Matter of Interest – ANA
Maintenance of Buildings
The ANA did not always maintain buildings after CSTC-A had transferred the buildings
to the ANA. For example, during a site visit to Mazar-e-Sharif (MeS), we observed
numerous maintenance problems in central toilets, showers, and latrines including the
formation of mold, cracks in the walls, broken water faucets, broken door locks, and
frozen pipes in a facility that had been turned over to the ANA. An AED field engineer
stated it was difficult to get ANA soldiers to care for their own facilities.

AED awarded service contract W912ER-04-D-0003, task order 0015, to Contrack
International Inc. to maintain ANA facilities, including buildings in MeS. The contracted
services are to preserve and maintain all facilities and infrastructure for their designated
functional purpose. In addition to performing maintenance services, the contractor is also
required to train the ANA on facilities maintenance.

After our site visit to MeS, we discussed maintenance issues with CSTC-A and AED to
facilitate potential solutions. Regarding the mold, CSTC-A and AED came up with a
short-term solution, using a bleach mixture to disinfect the ceilings and temporarily
eliminate the mold. The CSTC-A long-term solution was to ensure adequate exhaust
ventilation in each latrine by wiring existing exhaust fans, and to have the ANA take
ownership of the space.

The figure below shows before and after pictures of mold formation at an ANA facility in
MeS.




              During DoD IG Visit (left) and After DoD IG Visit (right)




                                            27
28
Appendix C. Management Comments on the
Review of Internal Controls and Our
Response
The Commander, AED did not agree that AED had material internal control weaknesses
in the planning of construction requirements and inspection of construction.

AED Comments
The Commander, AED did not agree that material control weaknesses (as defined by
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4,
2006) existed in the planning of construction requirements and inspection of construction.
The Commander stated that he did not believe the deficiencies warrant becoming
reportable conditions. AED cited DoD Instruction 5010.40, stating that a material
weakness involves a deficiency in management controls that warrants the attention of the
next level of command (Headquarters USACE) because the next level must take action or
because it must be aware of the problem.

The Commander stated that the findings do not support the deficiencies as being material
because the report found only 3 contract modification exceptions out of 220 and 4 out of
25 contracts with intermittent QC deficiencies. He stated that the internal controls
weaknesses are not systematic or to a degree that requires reporting in accordance with
DoD Instruction 5010.40, and AED management judgment is not to report this weakness
as material.

The Commander did agree that AED’s internal controls need continual improving in
planning of construction requirements and inspection of construction. He stated that
appropriate corrective actions were developed and implemented to strengthen efforts in
identifying construction requirements and improving inspections. Specifically, he noted
the finalization and implementation of the ANA Program Management Plan and the
establishment of the QA Branch within AED. The Commander stated that these actions
resulted in “significant improvements in the reduction of risk and execution of both our
planning of construction and, in particular, the QC performance area. In addition, he
cited nine efforts taken by the QA Branch that have improved QA/QC. Among the
efforts, the Commander noted that the number of AED-certified construction material
laboratories increased from 20 to 40, and AED contracts now require that the contractor
QC manager take a construction quality management class offered by USACE. For the
list of all nine AED efforts, see the AED management comments at the end of the report.

Our Response
Regarding the material internal control weaknesses related to planning of construction
requirements and inspection of construction, we disagree with AED. The findings
highlight material deficiencies in AED’s internal controls. DoD Instruction 5010.40
defines a material weakness in internal controls as a reportable condition significant
enough to report to the next higher level.


                                           29
We made a judgment that AED’s controls over the planning of construction requirements
had a material weakness that necessitated reporting to a higher level. While we
commend AED and CSTC-A for finalizing and signing the ANA Program Management
Plan, this action took place more than a year after the audit began and only in response to
the audit recommendation. In the absence of a signed plan, CSTC-A and AED operated
without any formal agreements outlining the roles and responsibilities of each party. This
resulted in the failure to plan construction requirements, as discussed in finding A, a
weakness we deem material.

AED had a material control weakness over inspection of construction. While QC is the
responsibility of the contractor, the contractors failed to meet these requirements. These
failures resulted in the contractor’s inability to meet contract schedules, as well as in
unsafe working conditions and faulty construction. Effective QC is so important to the
management of construction that it is not enough that the contract contains QC
requirements; AED must verify that the contractor is capable of performing QC. AED’s
lack of controls over inspection of construction requirements represented a material
weakness that necessitates reporting to a higher level. We understand the difficulties
AED faces working in wartime conditions, and we commend the steps it has taken so far
to improve oversight of QC.




                                            30
   Appendix D. Contracts Reviewed
                                                                                       Net Contract
    Location                   Contract No.                    Description                Value           Province
 Kabul Military
                           W917PM-06-C-0018                Classrooms/Ranges             10,579,310          Kabul
 Training Center
   ANA NMH                W917PM-05-C-0005               ANA NMH Phase I                 18,910,143          Kabul
                          W917PM-06-C-0032               ANA NMH Phase II                6,978,833           Kabul
   Bala Hissar            W917PM-06-C-0027               G2 Intelligence Bldg.           12,476,048          Kabul
    NMAA                  W917PM-06-C-0022              NMAA Gym/Motor Pool              3,526,020           Kabul
                          W917PM-07-C-0061              Two-Story Office Bldg.            465,903            Kabul
   NMAA &                W917PM-07-D-0019, TO
                                                        Warehouses & Bathrooms           1,914,950           Kabul
   Darulaman                    0004
Camp Commando at                                          Commando Battalion
                           W917PM-07-C-0034                                              23,163,238          Kabul
   Darulaman                                                  Complex
                                                          Commando Garrison
                            W912ER-07-C-0012                                             3,416,815           Kabul
                                                              Facilities
                         W917PM-04-D-0003, TO
                                                            Khairabad ASP              4,303,923           Kabul
                                0004
                          W917PM-07-C-0030                 Commando Fence                2,409,816           Kabul
                                                          Training Command
                                                                                                             Kabul
                          W917PM-06-C-0039                Headquarters Bldg.             2,583,224
       Kandahar           W917PM-07-C-0006               ANA Hospital Addition           2,338,786         Kandahar
                         W912ER-04-D-0003, TO
                                                         ANA Regional Brigade            67,189,485        Kandahar
                                0006
                         W912ER-04-D-0003, TO
         Herat                                           ANA Regional Brigade            70,006,271          Herat
                                0004
  Mazar-e Sharif          W917PM-05-C-0009              ANA Regional Hospital            3,654,049           Balkh
                          W917PM-06-C-0019              ANA Headquarters Bldg.           1,015,368           Balkh
                          W917PM-07-C-0069                ANA Training Bldg.              246,038            Balkh
                                                       Range Classrooms-Training
                           W917PM-08-C-0006                                               374,812            Balkh
                                                                Shelters
                         W912ER-04-D-0008, TO
                                                         ANA Brigade Facilities          72,757,082          Balkh
                                0001
                         W912ER-04-D-0008, TO
        Gardez                                           ANA Brigade Facilities          66,420,840         Paktia
                                0002
                          W917PM-05-C-0007              ANA Regional Hospital            3,487,851          Paktia
                          W917PM-08-C-0011             MEDCOM Living Facilities           348,600           Paktia
                                                       Log Depot-Class V Ammo
        Various            W917PM-06-C-0034                                              23,240,788         Various
                                                               Supply
                                                         Heating and Cooling
        Various            W917PM-07-C-0032                                              18,228,131         Various
                                                              Upgrades
                                   Total                                               $420,036,324



   
       Net contract value is the contract award amount, adjusted for contract modifications as of November 2008.
   
        Ammunition Supply Point.


                                                         31
32
Appendix E. Sites Visited
In finding A, we found that AED could account for construction on 23 of the 25
contracts. We also visited construction sites to verify that the real property physically
existed. We collected evidence by taking photographs and videos during construction
site walk-throughs. We verified the existence of the 25 real property construction
projects awarded by AED at the direction of the CSTC-A in support of the ANA. Below
are some of the sites we visited.

Kabul Military Training Center
AED awarded Zafer Construction Company contract W917PM-06-C-0018, valued at
$10.6 million, to design and construct two 800-man classroom buildings, associated
utilities, an administration building, and a latrine facility; renovate the auditorium foyer;
and implement various range upgrades.

On February 26, 2008, we visited the site and observed the construction at the Kabul
Military Training Center at Kabul. We observed that the construction generally met the
scope of work. We verified the existence of multiple buildings at the Kabul Military
Training Center. We found that a classroom was being used as temporary barracks. In
addition, we noticed that the latrine facility was partially in disrepair, with door handles
missing from multiple stalls. Figure E-1 shows a classroom and a latrine facility at the
Kabul Military Training Center.




               Figure E-1. Classroom (left) and Latrine Facility (right)


Kabul ANA National Military Hospital
As discussed in findings, AED awarded two contracts for a two-phased renovation and
repair of the ANA NMH at Kabul. The first phase was awarded on October 9, 2004, to
Zafer Construction Company and was valued at $18.9 million. The second phase was
awarded on August 1, 2006, to Venco-Imtiaz Construction Company, and was valued at
$7.0 million. On March 11, 2008, we visited the ANA NMH in Kabul. We observed the



                                              33
construction and verified the existence of the NMH. We observed the ongoing
construction at NMH, including that of the elevators and surgeon building (Figure E-2).




              Figure E-2. Elevators (left) and Surgeon Building (right)


National Military Academy of Afghanistan
On February 27, 2008, we visited the NMAA to verify the existence of three construction
projects.

Gym
AED awarded MSCC contract W917PM-06-C-0022, valued at $3.5 million, to upgrade
and construct various requirements, including a gym, motor pool offices, and a
shower/ablution facility.

Office Building
AED awarded Feka Insaat Sanayi Ve Ticaret Limited STI contract W917PM-07-C-0061,
valued at $465,903, to design and construct a two-story office building at NMAA.

Warehouses and Darulaman Bathrooms
AED awarded FCEC UIProjects JV contract W917PM-07-D-0019, task order 0004,
valued at $1.9 million, to construct warehouses at NMAA and bathrooms and a parking
lot at Camp Julian, near Darulaman. We visited the bathrooms and parking lot on our
March 1, 2008, site visit to Darulaman.

We observed that the ongoing construction generally met the scope of work. We verified
the existence of multiple buildings at the NMAA in Kabul, including the NMAA gym
and latrine (Figure E-3).




                                           34
                  Figure E-3. NMAA Gym (left) and Latrine (right)


Darulaman
On March 1, 2008, we visited Darulaman to verify the existence of five construction
projects.

Rish Kvour Commando Battalion Complex
AED awarded Pro-Sima contract W917PM-07-C-0034, valued at $23.2 million, to design
and construct a Commando Battalion Complex at Rish Kvour near Darulaman. The
requirements included barracks, a dining facility, a motor pool, a network of roads and
bridges, and a medical clinic.

Commando Counter Explosive School/Commando Garrison
AED awarded OBD Construction Company contract W912ER-07-C-0012, valued at
$3.4 million, to construct an ANA Counter Explosive school. Later, CSTC-A decided to
relocate the Counter Explosive school, but the remaining requirements were still
constructed as part of the contract. These requirements included water, sewer, and power
distribution systems and student living quarters.

Camp Morehead Commando Fence
AED awarded Kabul Europe Construction Road & Materials Company
contract W917PM-07-C-0030, valued at $2.4 million, to design and construct force
protection measures at Camp Morehead near Darulaman. The force protection included a
fence, observation towers, and entry control points.

Khairabad Ammunition Supply Point
AED awarded Zafer Construction Company contract W917PM-04-D-0003,
task order 0004, valued at $4.3 million, to upgrade security measures, replace facilities,
and upgrade utility infrastructure for the ammunition supply point at Khairabad.




                                             35
Training Command Headquarters
AED awarded Yuksel Construction Company contract W917PM-06-C-0039, valued at
$2.6 million, to design and construct an ANA Training Command headquarters building
at Camp Julian in Darulaman. The contract included a requirement for the headquarters
building, with tea room and storage room. Also included was a parking lot. Figure E-4
shows the Training Command headquarters building and Commando Battalion Complex.




    Figure E-4. Training Command Headquarters (left) and Commando Battalion
                              Complex (right)


G2 Intelligence Headquarters Security Brigade
On June 6, 2008, we visited the G2 Intelligence Headquarters Command and Security
Brigade at Bala Hissar, Kabul, and observed the construction.

On July 15, 2006, AED awarded Shaw Environmental & Infrastructure Inc.
contract W917PM-06-C-0027, valued at $23.0 million, to design and construct ANA
G2 Intelligence Headquarters Command and Security Brigade to support 1,500 persons in
Bala Hissar. This included a requirement for a prime power plant, a perimeter wall,
guard towers, bachelor officer quarters, and renovation of a swimming pool. In May
2007, the contractor uncovered an archaeological discovery of historical significance,
and a suspension of work was issued to the contractor on May 18, 2007. In an AED
memorandum dated November 12, 2007, AED counsel determined that the proposed
change to the original contract was out of scope and considered a major change.
Therefore, on March 8, 2008, AED issued a modification to partially terminate the
contract and reduce the value of the contract from $23.0 million to $12.5 million at the
convenience of the Government. The contractor billed for supervision, material, and
equipment costs. While many of the original contract requirements were never
completed, during our site visit we observed the renovation of the pool and saw the
unused material purchased for the contract.




                                          36
Kandahar
On March 2, 2008, we visited the Regional Brigade and the hospital addition at
Kandahar.

Kandahar Regional Brigade
AED awarded Contrack International Inc. contract W912ER-04-D-0003, task order 0006,
valued at $67.2 million, to design and construct the ANA regional brigade in Kandahar.
The regional brigade included a prime power plant, an infantry battalion
complex, training building, centralized maintenance facility, barracks, and a dining
facility. Figure E-5 shows facilities at the Regional Brigade in Kandahar.




                Figure E-5. Barracks (left) and Dining Facility (right)

Kandahar Hospital Addition
AED awarded Krima/Kainatt (JV) Construction Company contract W917PM-07-C-0006,
valued at $2.3 million, to design and construct a 50-bed, single-story hospital addition to
the regional hospital at the ANA brigade in Kandahar. The hospital addition included a
patient care facility and related administrative, nursing, visiting, and support facilities.
Figure E-6 shows the hospital addition at Kandahar under construction.




                       Figure E-6. Kandahar Hospital Addition
                                 Under Construction


                                            37
Herat Regional Brigade Facilities
On May 25, 2008, we visited the Regional Brigade at Herat. AED awarded Contrack
International Inc. contract W912ER-04-D-0003, task order 0004, valued at $70 million,
to design and construct ANA Regional Brigade in Herat. This contract included
requirements for a prime power plant, bachelor officer quarters, helipad, training
building, communication system, and a dining facility.

Construction Contracts at Mazar-e-Sharif
On May 2, 2008, we visited the following real property construction sites at MeS to
verify construction of:

   x   the regional hospital,
   x   the Corps headquarters building,
   x   the Tactical Operation Center,
   x   the range classrooms, and
   x   Regional Brigade facilities.

MeS Regional Hos pital
AED awarded Mensel JV Company Inc. contract W917PM-05-C-0009, valued at
$3.7 million, to design and construct a 2,450-square-meter, 50-bed regional hospital in
MeS.

MeS Corps Headquarters
AED awarded Venco-Imtiaz Construction Company contract W917PM-06-C-0019,
valued at $1 million, to design and construct a 776-square-meter, two-story Corps
headquarters building in MeS.

MeS Tactical Operation Center
AED awarded Toll Brothers Construction Company contract W917PM-07-C-0069,
valued at $246,038, to renovate the Tactical Operation Center in MeS. The renovation
included a building upgrade, conference room, office space, and an electrical distribution
system. Figure E-7 shows the Tactical Operation Center conference room and office in
MeS.




                                            38
 Figure E-7. Tactical Operation Center Conference Room (left) and Office (right)

MeS Range Classrooms
AED awarded Art Construction contract W917PM-08-C-0006, valued at $374,812, to
design and construct a new range, classrooms, training shelters, and training buildings in
MeS.

MeS Regional Brigade Facilities
AED awarded Perini Corporation contract W912ER-04-D-0008, task order 0001, valued
at $72.8 million, to design and construct ANA Regional Brigade in MeS. This contract
included requirements to construct a prime power plant, water treatment plant, central
toilet/shower facility, a centralized maintenance area, helipad, and infantry battalion
complex. During our site visit, we found facilities maintenance problems, such as the
formation of mold and frozen pipes. The mold at MeS is discussed in Appendix B.
Figure E-8 shows fuel storage tanks and frozen pipes in showers at the Regional Brigade
in MeS.




       Figure E-8. Fuel Storage Tanks (left) and Frozen Pipes (right) at MeS




                                            39
Construction Contracts at Gardez
On April 20, 2008, we visited the following real property construction sites at Gardez to
physically verify the existence of:
   x the regional brigade,
   x the regional hospital, and
   x the medical living facilities.

Gardez Regional Brigade Facilities
AED awarded Perini Corporation contract W912ER-04-D-0008, task order 0002, valued
at $66.4 million, to design and construct the ANA Regional Brigade in Gardez. This
contract included requirements to construct a prime power plant, a water treatment plant,
a central toilet/shower facility, an infantry battalion complex, a maintenance training
facility, training ranges, and a communications system.

Gardez Regional Hospital
AED awarded Mensel JV Company Inc. contract W917PM-05-C-0007, valued at
$3.5 million, to design and construct a 2,450-square-meter, 50-bed regional hospital in
Gardez.

Gardez Medical Living Facilities
AED awarded Development Organization for Revival of Razia Sadat Afghanistan
contract W917PM-08-C-0011, valued at $348,600. This contract was to design and
construct a medical living facility and renovate an existing living quarters building and
dining facility to house 120 personnel in Gardez. Figure E-9 shows the medical living
facility in Gardez.




                          Figure E-9. Medical Living Facility




                                            40
Combined Security Transition Command-Afghanistan
Comments




                                   e




                              
Click to add JPEG file




               
Click to add JPEG file




               
U.S. Army Corps of Engineers, Afghanistan Engineer
District Comments




                                
                          Final Report
                           Reference




Click to add JPEG file
                         Page 21




                         Page 21




               46
Click to add JPEG file




               47
Click to add JPEG file




               48
Click to add JPEG file




               49
Click to add JPEG file




               50
Click to add JPEG file




               51
Click to add JPEG file




               52
Click to add JPEG file




               53
Click to add JPEG file




               54
